                       U.S. DEPARTMENT OF LABOR
                    EVALUATION OF GRANT CLOSEOUT
                         PRACTICES APPLIED TO
                 JOB TRAINING PARTNERSHIP ACT GRANTS

                GRANTS AWARDED TO THE STATE OF IOWA




                 INDEPENDENT ACCOUNTANTS = REPORT
                ON APPLYING AGREED-UPON PROCEDURES


                     JULY 1, 1997 THROUGH JUNE 30, 2000




R. Navarro & Associates, Inc. prepared this report under contract to the U.S.
Department of Labor, Office of Inspector General, and by acceptance it becomes a
report of the Office of Inspector General.



                        __________________________________________
                        Assistant Inspector General for Audit
                        U.S. Department of Labor




                                                     Report No.: 04-03-018-03-340
                                                     Date Issued: May 5, 2003


                   R. NAVARRO & ASSOCIATES, INC.
                                                        TABLE OF CONTENTS




ACRONYMS .................................................................................................................................. iii

INDEPENDENT ACCOUNTANTS= REPORT ON APPLYING AGREED UPON PROCEDURES
..........................................................................................................................................................1

SUMMARY OF FINDINGS ...........................................................................................................2

BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY .............................................3

           BACKGROUND .................................................................................................................3

           OBJECTIVES, SCOPE AND METHODOLOGY................................................................3

PROCEDURES AND FINDINGS ...................................................................................................4

STATE OF IOWA’S RESPONSE AND
INDEPENDENT ACCOUNTANTS’ COMMENTS .......................................................................8

EXHIBIT I – COMPLETE TEXT OF THE STATE OF IOWA’S RESPONSE..............................10




                                                                            ii
                                   ACRONYMS




CFR    Code of Federal Regulations
DOL    U.S. Department of Labor
ETA    Employment and Training Administration
FSR    Financial Status Report
FY     Fiscal Year
IFAS   Iowa Financial Accounting System
JTPA   Job Training Partnership Act
OIG    Office of the Inspector General
PY     Program Year
SFY    States Fiscal Year
SEFA   Schedule of Expenditures of Federal Awards
WIA    Workforce Investment Act




                                          iii
Mr. Elliot P. Lewis
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor

                        INDEPENDENT ACCOUNTANTS== REPORT
                       ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures enumerated in the “Procedures and Findings” section of this report.
 These procedures were agreed to by the U.S. Department of Labor (DOL), Office of Inspector
General (OIG). We completed these procedures solely to assist the OIG in evaluating the State of
Iowa’s closeout practices for Job Training Partnership Act (JTPA) grants awarded by the DOL
Employment and Training Administration (ETA) from July 1, 1997 through June 30, 2000.

Management of the State of Iowa is responsible for closing JTPA grants in accordance with applicable
regulations and requirements established by ETA. ETA is responsible for processing and certifying
grant closure, and recording final obligation, expenditure and payment information in DOL=s general
ledger.

This agreed-upon procedures engagement was performed in accordance with the attestation standards
established by the American Institute of Certified Public Accountants and Government Auditing
Standards issued by the Comptroller General of the United States. The sufficiency of these procedures
is solely the responsibility of your office as the specified user of the report. Consequently, we make no
representation regarding the sufficiency of the procedures performed either for the purpose for which
this report has been requested or for any other purpose.

The results of our procedures are described in the “Procedures and Findings” section of this report.

We were not engaged to, and did not, perform an examination, the objective of which would be the
expression of an opinion on the accompanying information obtained from the respective entities.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other
matters might have come to our attention that would have been reported to you.

This report is intended solely for the information and use of the DOL, OIG, and is not intended to be,
and should not be used, by anyone other than the specified party.




March 1, 2002
                                     SUMMARY OF FINDINGS


The State of Iowa (State) submitted its Job Training Partnership Act (JTPA) closeout package to the
U.S. Department of Labor (DOL), Employment and Training Administration (ETA) on December 29,
2000, which was within the timeframes established by ETA. We identified the JTPA expenditures
reported on the final closeout report, and found that the amounts were reasonable based on data
previously reported to ETA. However, we were unable to determine if the JTPA expenditures reported
to ETA were supported by the State’s accounting records. The State’s official accounting system did
not record expenditures by program. We were provided certain off-ledger financial records and
reports, mostly EXCEL spreadsheets, but we were unable to determine an audit trail from the off-ledger
records to the FSRs.

The JTPA program was audited as a major program in the State’s single audits for State Fiscal Year
(SFY) 1999 and SFY 2000. The SFY 2000 single audit report included four unresolved findings
pertaining to the JTPA program. In the findings, the single auditors’ reported that: the Iowa Workforce
Development Department did not have effective cash management procedures; Federal reports were
not reconciled to the State of Iowa’s financial accounting system; procedures were not in place to insure
the accuracy of data entered into its internal cost allocation system; and the Department was unable to
provide a Schedule of Expenditures of Federal Awards, as required by OMB Circular A-133.

We visited two subrecipients, and found that final expenditures reported to the State reconciled to the
subrecipients’ accounting records.

State of Iowa’s Response and Independent Accountants’ Comments

Iowa Workforce Development provided a written response to our draft report, dated
February 28, 2003, which is included in its entirety at Exhibit I. Iowa Workforce Development
generally did not concur with the findings and information presented in the report, however, its written
response did not provide additional information that would change the findings as stated.




                                                    2
              BACKGROUND, OBJECTIVES, SCOPE AND METHODOLOGY


Background

The JTPA was enacted in 1982 to provide job training programs which would afford disadvantaged
youth and adults with the training necessary to obtain productive employment. The JTPA program was
repealed on June 30, 2000, when ETA implemented a successor program, authorized by the
Workforce Investment Act. The closeout of active JTPA grants began in July 1999, with final closeouts
due no later than December 31, 2000. Unspent funds from the PY 1998 and PY 1999 JTPA State
grants were authorized for transition into the WIA program.

All JTPA closeout information is sent to the DOL, ETA, Office of Grant and Contract Management,
Division of Resolution and Appeals. According to 20 CFR, Part 627.485, JTPA grants should
normally have been closed within 90 days after the time limitation for expenditure of JTPA funds. For
PY 1997 grants, the 90-day limitation expired September 30, 2000. However, in certain instances,
ETA extended the reporting beyond that specified in the program regulations. According to instructions
set forth by ETA in the JTPA Financial Closeout Technical Assistance Guide, final JTPA financial
reports for PY 1998 and PY 1999 grants should have been submitted no later than December 31,
2000.

Objectives, Scope and Methodology

In general, our procedures were designed to determine if: the State of Iowa closed its JTPA grants on a
timely basis in accordance with ETA instructions; amounts reported in the closeout packages and/or the
final cost reports were reasonable and supported by the State=s and subrecipients’ accounting records;
and there were unresolved audit findings pertaining to JTPA awards.

Our agreed-upon procedures include the JTPA funds awarded to the State of Iowa for PYs 1997,
1998 and 1999, and FYs 1997 and 1998. Procedures were applied to grant activities reported by the
State and two subrecipients, Central Iowa Employment and Training Consortium and Hawkeye
Community College, on final closeout reports.




                                                   3
                             PROCEDURES AND FINDINGS


1.   Identify the State’s JTPA grants to be included in the scope of these procedures, and
     the obligations and final reported expenditures related to each.

     The JTPA grants awarded to the State of Iowa and included in the scope of these procedures
     are as follows:

                                                   Per Grantee Closeout
                               Federal                                                   Net
                             Obligations      Total Reported      Inter-title        Expenditures
       Year and Title         Authority        Expenditures       Transfers          (Computed)
      FY 97 II B               $ 3,384,040          $ 3,384,040     $ (569,118)       $ 2,814,922
      PY 97 II & III            8,443,786            8,443,614            569,118       9,012,732
      PY 97 III D               1,498,125            1,404,913                  0       1,404,913
      FY 98 II B                3,495,866            3,495,598          (676,191)       2,819,407
      PY 98 II & III            9,712,556            9,655,093            676,191      10,331,284
      PY 99 Adult               8,187,622            6,233,104            (43,587)      6,189,517
      PY 99 Youth               3,624,003            2,919,063             43,587       2,962,650
       Total                  $38,345,998          $35,535,425      $           0    $ 35,535,425



2.   Determine if the JTPA grants awarded to the State were closed on a timely basis in
     accordance with ETA instructions.

     The Iowa Department of Workforce Development submitted its closeout package within the
     timeframes established by ETA. The closeout was submitted to ETA on December 29, 2000.

3.   Inspect the closeout information reported to ETA, and determine if the information was
     consistent with data previously reported on final FSRs.

     The State of Iowa submitted final FSRs with the closeout package; consequently, there were no
     differences between the FSRs and the closeout. As an alternative procedure, we inspected the
     JTPA reconciliation worksheet prepared by ETA which identified the final cost entries required
     to be recorded in the DOL’s general ledger. This worksheet identified only minor adjustments
     to previously recorded grant costs. Accordingly, the amounts reported on the closeout package
     are considered to be reasonable based on amounts previously reported to ETA.




                                               4
4.   Determine if amounts reported on final cost reports or on the closeout package were
     supported by the State’s accounting records.

     We were unable to perform this procedure. The official accounting system for the state of
     Iowa, the Iowa Financial Accounting System (IFAS) did not record expenditures at the
     program level. Rather, program level expenditures were recorded off-ledger in a financial
     tracking system and then were summarized in an EXCEL spreadsheet program, from which the
     FSRs were prepared. The State had not prepared a reconciliation of the JTPA expenditures
     recorded in the two off-ledger systems to the IFAS.

     We were not able to trace the JTPA expenditures recorded in the two off-ledger systems to
     those reported on the FSRs. Throughout the duration of our site visit, State officials provided
     various reports from these systems in an effort to provide support for amounts reported on the
     FSRs, however, each time it was determined that documents provided were not complete and
     did not directly trace to the FSRs. We made several attempts at this process, but we were
     never provided with reports from the off-ledger systems that provided a clear audit trail to the
     FSRs.

5.   Select a sample of two final closeout reports submitted by subrecipients to the State,
     and determine if the subrecipients’ final JTPA expenditures were accurately recorded
     in the State’s accounting records.

     Due to the situation described at procedure 4, we could not complete this procedure.

6.   Obtain the State’s single audit reports submitted for the two most recent fiscal years
     available, and ide ntify the JTPA expenditures reported on the Schedule of
     Expenditures of Federal Awards (SEFA). Determine if these funds were tested as a
     major program, in accordance with single audit requirements.

     We obtained the State’s single audit reports for SFY 1999 and SFY 2000, and identified the
     total JTPA expenditures reported on the SEFA, $17.8 million and $13.6 million, respectively.
     The JTPA program cluster was listed as a major program for both fiscal years.

7.   Determine if the single audit reports identified reportable conditions, material
     weaknesses, report qualifications, or any other audit issues pertaining to JTPA grants
     that remain unresolved.

     The State’s annual single audit report for FY 2000 (most recent available) included the
     following reportable conditions relative to the JTPA program. Findings A through D represent
     prior year findings that carried over to FY 2000. In all cases, the state provided responses to
     the findings that were accepted by the single auditors, but the responses were based on
     modification of the accounting system in future periods. These modifications were not complete
     as of the date of our site visit.




                                                 5
A.   Cash Management, finding 00-III-DOL-309-1

     The single auditors’ review of the Iowa Department of Workforce Development’s cash
     management system identified that: the process for requesting funds involved combining
     programs for the forecasting of daily cash needs; commingling federal and non-federal
     funds did not provide evidence that the funds drawn down by each major program were
     disbursed within a minimal period; and cash balances by specific federal program were
     not determined prior to a draw down, which resulted in one program and / or state
     appropriation subsidizing other programs.

     The State acknowledged these findings, and indicated that the primary accounting
     system, IFAS, would be modified in future periods to include program level information.
      The single auditors accepted this response.

B.   Federal Financial Reports, finding 00-III-DOL-309-2

     The single auditors reported that Federal financial reports were prepared from the
     Department’s internal cost accounting system and service delivery area reports.
     However, the data in the cost accounting system and service area reports was not
     reconciled to the State of Iowa’s Financial Management System (IFAS).

     The State acknowledged this finding, and indicated that the primary accounting system,
     IFAS, would be modified in future periods to include program level information. The
     single auditors accepted this response.

C.   Cost Allocation / Allowable Cost, finding 00-III-DOL-309-3

     The single auditors’ review of cost allocation practices identified that: there was no
     mechanism in place to detect data entry errors that may have occurred when entering
     information into the Department’s cost allocation system; and for two of sixty
     expenditure claims tested, the activity codes originally assigned were later changed,
     without documentation as to the reason for the change.

     The State acknowledged these findings, and indicated that the primary accounting
     system, IFAS, would be modified in future periods to include program level information.
      The modification of IFAS would eliminate the cost allocation system described in the
     finding. The single auditors accepted this response.

D.   Schedule of Expenditures of Federal Awards, finding 00-III-DOL-309-4

     The single auditors reported that the Iowa Department of Workforce Development was
     unable to provide a Schedule of Expenditures of Federal Awards, as required by OMB
     Circular A-133. Rather, the Department provided a listing of federal cash draw downs
     by program.


                                        6
              The State acknowledged this finding, and indicated that the primary accounting system,
              IFAS, would be able to generate expenditures by program in future periods. The single
              auditors accepted this response.

      E.      Subrecipient Monitoring, finding 00-III-DOL-309-5

              The single auditors’ review of the Department’s subrecipient monitoring activities during
              fiscal year 2000 identified that: fiscal monitoring was not performed on two of fourteen
              Service Delivery Area and Sub-State Grantees; program monitoring was not performed
              on any of the Service Delivery Areas and Sub-State Grantees; and seven of the
              eighteen subrecipient audit reports were not received by the Department within nine
              months of the fiscal year end.

              In response to this finding, the State provided various reasons why the site-level
              monitoring had not taken placed. The single auditors accepted their response.

8.    Obtain the final cost reports submitted by two subrecipients and determine if the
      amounts reported were supported by the subrecipients’ accounting records.

      We visited two subrecipients, the Central Iowa Employment and Training Consortium and the
      Hawkeye Community College. For each subrecipient, we compared the
      final JTPA expenditures reported to the State to expenditures recorded in the subrecipients
      accounting systems, and found that the amounts reconciled.

9.    Obtain the subrecipients single audit reports and identify the JTPA expenditures
      reported on the Schedule of Expenditures of Federal Awards. Determine if the
      amounts agree or were reconciled by the single auditors to the expenditures recorded
      in the accounting records.

      We obtained the single audit reports for both subrecipients visited and identified the JTPA
      expenditures reported on the SEFA. We compared the SEFA expenditures to expenditures
      recorded in the subrecipients accounting records, and found that the amounts reconciled.

10.   Inspect the single audit reports submitted for the subrecipients and de termine if there
      were reportable conditions, material weaknesses, report qualifications, or any other
      audit issues pertaining to JTPA grants that remain unresolved.

      We obtained the single audit reports for both subrecipients visited, and determined that the audit
      reports did not identify any unresolved reportable conditions, instances of noncompliance,
      report qualifications or other issues pertaining to the JTPA program.




                                                  7
STATE OF IOWA’S RESPONSE AND INDEPENDENT ACCOUNTANTS’ COMMENTS


State of Iowa’s Response

The Iowa Workforce Development provided a written response to our draft report, dated
February 28, 2003, which is included in its entirety at Exhibit I. In general, the State disagreed with the
information presented in the report, and indicated that the report was an unfair representation of the
agency’s performance. The key points were:

     1. The State contended that the Auditor of State performs an annual audit of the agency’s programs,
        and that the auditor was able to trace all costs from the State’s accounting system to the off-
        ledger system. The State claimed that the off-ledger system was provided by the USDOL, which
        is why it did not link to the State’s accounting system, and was abandoned for the State’s own
        system as of July 1, 2000.

2.      The State indicated that since we were able to trace the subrecipient’s final Financial Status
        Reports to the subrecipient’s books of account, that we were able to accomplish some of the
        procedure required by item 5 of the draft report.

3.      The State disagreed with the report comment that the implementation of the new system was not
        complete as of the date of our fieldwork. The State indicated that the agency implemented the
        sole use of the State’s accounting system on July 1, 2000 and that we were informed of this fact
        during our site visit.

4.      The State commented that the inability to trace costs to the accounting system was due to the
        team’s unfamiliarity with the JTPA program.

Independent Accountants’ Comments

The comments provided by the State in its response do not adequately address the most critical issue
noted in our report, that is, we were never provided with accounting records or reports from either the
IFAS or the off-ledger systems that provided a clear audit trail to the FSRs and closeout report. This fact
was communicated on numerous occasions to State officials.

Procedure 5 was intended to determine if subrecipient expenditure reports were accurately recorded in
the State’s accounting system. Our procedure to trace subrecipient expenditure reports to the
subrecipients’ accounting systems (procedure 8) was a separate procedure to determine if there was an
audit trail for amounts reported by the subrecipient. This procedure did not provide support as to the
accuracy of the State’s records.

As to the State’s claim that the single auditors were able to reconcile the off-ledger system to the IFAS as
part of the annual audits, we provide the following quote from the SFY 2000 audit report, ”the data in the
cost accounting system and service delivery area reports are not reconciled to the State of Iowa’s
Financial Accounting System (IFAS).” The single auditors also reported that the State was unable to

                                                     8
produce a Schedule of Expenditures of Federal Awards by Federal program.
During our site visit, we spoke to representatives from the State’s Auditor General Office and were
informed that there were several problems with the accounting systems during the years covered by our
procedures (1997 to 2000). The auditors informed us that the off-ledger accounting system was found to
have errors and was not reconciled to IFAS.

As to the State’s contention that IFAS was fully implemented as of July 1, 2000, the single auditors
informed us that the State was in the process of implementing the full use of IFAS. We interpreted this to
mean that the process was not yet complete. However, even if the State fully implemented the changes to
the IFAS system as of July 2000, this would have no impact on the accounting of JTPA expenditures
incurred in prior years and reported to DOL on the closeout and final FSRs.

Finally, we wish to note that the team sent to Iowa to perform the agreed-upon procedures was made up
of individuals who visited other states, where they were able to perform these procedures without
exception.




                                                   9
                                                                                  EXHIBIT I

                           THE COMPLETE TEXT OF
                       IOWA’S RESPONSE TO THE DRAFT
                      AGREED-UPON PROCEDURES REPORT




Following this title page is the complete text of Iowa’s response to our agreed-upon procedures
report, issued to them on February 14, 2003.




                                          10
11
12
